                              September 30, 1998


                              MICHAEL S. COUGHLIN
                              DEPUTY POSTMASTER GENERAL

                              SUBJECT:         Status of Management Actions Taken for USPS
                                               Inspection Service Reports on Labor Management
                                               Practices Related to Potential Violence in the
                                               Workplace (PA-MA-98-004)

                              Congressman John McHugh, Chairman, Subcommittee on the Postal
                              Service, requested on December 22, 1997, that the United States
                              Postal Service (USPS) Office of Inspector General (OIG) provide the
                              status of management actions taken in response to findings and
                              recommendations included in reports issued by the USPS Inspection
                              Service (Postal Inspection Service) to USPS management (Postal
                              management). The reports addressed weaknesses in labor
                              management practices that could contribute to violence in the
                              workplace.

                              Our objective was to determine the status of management actions
                              taken to correct deficiencies identified in seven labor management
                              reports issued by the Postal Inspection Service. This review was
                              conducted in June and July 1998. To conduct our review, we
                              retrieved information from the Postal Inspection Service Tracking
                              System1 to determine the status 2 for each finding and recommendation
                              for the following seven labor management reports:

                                  1.	 Audit of Pacific Equal Employment Opportunity (EEO)
                                      Activity, August 1997.
                                  2.	 National Coordination Audit of USPS Hiring Practices,
                                      January 1997.
                                  3.	 National Coordination Audit of Enhance Workplace Behavior,
                                      January 1997.
                                  4.	 Audit of Employee Commitment, January 1993.
                                  5.	 Audit of USPS Hiring Process, September 1992.



1
  USPS Inspection Service Tracking System – Systems Review Tracking Network (SRTN) is used to track
information on audit findings and recommendations, reviews, investigations, and management responses to
identified issues.
2
  Status denotes complete, pending, or incomplete.
Inspection Service Reports --Labor Management Practices                                                PA-MA-98-004
Related to Potential Violence in the Workplace

                                     6.	 Review of Alleged Systemic Violations of Regulations and
                                         Laws Relating to the Treatment of Postal Employees in
                                         Milwaukee, Wisconsin, April 1997.
                                     7.	 Review of Greater Southern California Area Employee-
                                         Management Relations, Seattle Division, February 1996.

                                 We also requested management provide written confirmation on the
                                 corrective actions taken in response to the findings and
                                 recommendations.

Results in Brief
                The Postal Inspection Service provided Postal management with 33
                                 findings and related recommendations addressing labor management
                                 practices that could contribute to violence in the workplace.
                                 Management took corrective action for 29 (88 percent) of the 33
                                 findings. For the remaining four findings, two findings were not
                                 sufficiently addressed by management. Postal management should
                                 provide guidance to the Area and the District to assist with resolving
                                 the two findings. Postal management disagreed with the other two
                                 findings; therefore, no corrective action was taken.

Background                       From September 1992 to August 1997, the Postal Inspection Service
                                 issued seven labor management reports. The reports included findings
Seven Labor                      and recommendations addressing Equal Employment Opportunity
Management                       Complaint processing, applicant suitability screening, workplace
Reports                          behavior, communications, security and personnel safety, and
                                 compliance with labor contracts.

Tracking and                     Postal management in coordination with the Postal Inspection Service
Monitoring Reports               is responsible for monitoring reports issued by the Postal Inspection
                                 Service to assure appropriate actions are taken in response to findings
                                 and recommendations. Tracking and monitoring audit findings and
                                 recommendations (the follow-up process) is an inherent management
                                 function in the private as well as the public sector3 . Management
                                 should monitor the follow-up process, checking with and encouraging
                                 operating officials to assure an appropriate response to the audit
                                 report. Management should assess or approve the adequacy and cost
                                 effectiveness of its corrective actions and take necessary steps to
                                 rectify continuing problems.

                                 The Postal Inspection Service is responsible for conducting reviews on
                                 reported findings and recommendations to ascertain whether
                                 resolution has been effectively achieved. The Postal Inspection
                                 Service disseminates a memorandum to Postal management
                                 semiannually (January and July) requesting the status of findings and
3
 Richard L. Ratliff, et al; Internal Auditing Principles and Techniques, 1996, the Institute of Internal Auditors,
Altamonte Springs, FL

                                                            2
                                                 Restricted Information
Inspection Service Reports --Labor Management Practices                                      PA-MA-98-004
Related to Potential Violence in the Workplace

                             semiannually (January and July) requesting the status of findings and
                             recommendations for audits, reviews, or investigations.

                             Also, the Postal Inspection Service tracks corrective actions
                             management has taken in response to the identified weaknesses using
                             the Systems Review Tracking Network (SRTN).

Observations
                Management had taken action to address most of the deficiencies
                             identified in the seven labor management reports issued by the Postal
                             Inspection Service. Specifically, management addressed 29 of the 33
                             (88 percent) findings and related recommendations. (See Attachment
                             1 for the Labor Management Reports Status Summary and Attachment
                             2 for a Summary of Findings and Recommendations). For the
                             remaining four findings, two findings were not sufficiently addressed
                             by management. Postal management should provide guidance to the
                             Area and the District to assist with resolving the two findings. Postal
                             management disagreed with the other two findings; therefore, no
                             corrective action was taken. The following paragraphs summarize the
                             details.

Management                   Management and the Inspection Service did not make sure that
Actions                      corrective actions were taken to address identified deficiencies for two
                             findings and related recommendations. Specifically, for the National
Not Taken
                             Coordination Audit of Enhance Workplace Behavior, management did
                             not ensure that appropriate actions were taken to evaluate workplace
                             behavior programs. In addition, for the Audit of Employee
                             Commitment, management did not evaluate the survey results to
                             develop an action plan for improving barriers between management
                             and the workforce. Management contended that they either took
                             alternative actions or were unaware of the findings. Following up on
                             corrective actions taken helps ensure that identified deficiencies are
                             effectively resolved.4

Unresolved                   Management disagreed with two findings and related
Findings                     recommendations and thus, did not take corrective actions to address
                             the identified deficiencies. Specifically during the Audit of Pacific
                             EEO Activity, the Inspection Service issued two findings to assist
                             Postal management with improving the EEO program. However, Area
                             management disagreed with the findings because they contended
                             Headquarters EEO and Compliance should address the issues and
                             provide guidance to the Area Office to correct the deficiencies. As a
                             result, significant deficiencies were not corrected because a system to


4
 We addressed management’s responsibilities for follow-up actions in Audit Report PA -MA-98-001, Enhancement
of USPS Audit Reporting and Follow-up System dated March 31, 1998.

                                                       3
                                            Restricted Information
Inspection Service Reports --Labor Management Practices                                         PA-MA-98-004
Related to Potential Violence in the Workplace

                                   result, significant deficiencies were not corrected because a system to
                                   resolve differences was not in place.5

Suggestions	                       As a result of our review, we suggest that the Vice President, Human
                                   Resources take corrective actions to address the unresolved findings
                                   and related recommendations included in the three reports. See
                                   Attachment 2 for summarized details on the findings and related
                                   recommendations.

Management                         The Vice President, Human Resources agreed to implement the
Comments                           suggestions included in this report. Specifically, for the Audit of
                                   Enhance Workplace Behavior, USPS will disseminate a follow up
                                   memorandum to the field managers not later than October 15, 1998
                                   requesting the status of actions to date. Also, for the Audit of
                                   Employee Commitment, USPS is currently preparing documents to
                                   inform Congress regarding some of the efforts being undertaken to
                                   achieve improved relations and will provide USPS OIG with the
                                   information when it is completed. The Vice President, Human
                                   Resource’s comments are included in Attachment 3 of this report.

                                   In addition, Vice President, Labor Relations agreed with the audit
                                   suggestions regarding the Audit of Pacific Area EEO Activity.
                                   Specifically, he stated that the USPS EEO Complaint Tracking System
                                   (EEO CTS) enables management to perform many of the
                                   recommended tasks including providing management with the ability
                                   to assign case numbers and track them. EEO CTS will, however, be
                                   revised in FY99 to track information in more detail. Additionally, the
                                   Vice President, Labor Relations, stated that performance cluster goals
                                   will focus on reducing both formal complaints and pre-complaint
                                   counseling request. Finally, as a result of further discussion with
                                   officials of the Equal Employment Opportunity Commission (EEOC),
                                   and as part of our review of intake procedures in connection with the
                                   nation roll out of the REDRESS Program for mediating EEO disputes,
                                   we have decided to define more precisely when the 30-day period
                                   begins. This will be incorporated into an update of Handbook EL-603.
                                   The Vice President, Labor Relation’s comments are also included in
                                   Attachment 3 of this report.

Evaluation of 	                    The Vice President, Human Resources and the Vice President, Labor
Management                         Relations comments are responsive to the suggestions identified in the
Comments                           report.




5
    This issue will be addressed in a future review of the audit resolutio n process.

                                                              4
                                                   Restricted Information
Inspection Service Reports --Labor Management Practices                                 PA-MA-98-004
Related to Potential Violence in the Workplace

                           We are continuing research on the USPS management’s efforts in
                           controlling and reducing violence in the workplace. If you have any
                           questions or would like to further discuss these issues, please contact
                           Debbie Pettitt, Director, Delivery/Other Operations, or me at
                           (703) 248-2300.



                           Colleen McAntee
                           Assistant Inspector General
                            for Performance

                           cc: 	Yvonne D. Maguire
                                John R. Gunnels
                                Alan B. Kiel




                                                    5
                                         Restricted Information
Inspection Service Reports --Labor Management Practices           PA-MA-98-004
Related to Potential Violence in the Workplace




                           Major contributors to this report:


                           Debra Pettitt
                           Sandra Bruce
                           Gary Cherry
                           Larry Thornton
                           Remedios Blake
                           Steve Pinard
                           Josephine Davis
                           Rosa Howard




                                                    6
                                         Restricted Information
Inspection Service Reports --Labor Management Practices                   PA-MA-98-004
Related to Potential Violence in the Workplace


                   Labor Management Reports Status Summary

                                                                   # of
           Title of Finding                                       Rec’s   SRTN

1. Audit of Pacific Area EEO Activity

  1.       Timeliness and Accuracy of Complaint Processing         5      001
  2.       Complaint Workhour Reporting System                     1      002
  3.       Equal Employment Opportunity Resolution                 1      001
  4.       Training Record Maintenance                             2      001
  5.       Supervisor Training                                     1      001
  6.       Performance Cluster Goals and Objectives                2      002


2. National Coordination Audit of USPS Hiring Practices

  1.       Office of Personnel Management Submissions              4      003
  2.       Measuring the Effectiveness of the Hiring Process       3      003
  3.       Processing Office of Personnel Management Results       1      003

3. National Coordination Audit of Enhance Workplace Behavior

           Program Management                                      3      003

4. Audit of Employee Commitment

           Employee Commitment                                     1      001

5. Audit of USPS Hiring Process

  1.       Management Accountability                               1      001
  2.       Review of Hiring Process                                1      003
  3.       Local and State Criminal Checks                         3      001
  4.       FBI Fingerprint Search                                  2      001
  5.       Prior Employment                                        3      001
  6.       Military Service Evaluation                             3      001
  7.       Interviews                                              2      001
  8.       Application Review                                      2      001
  9.       Training                                                2      001
  10.      Evaluation of New Employees                             3      001


                                                                           Attachment 1
                                                    7
                                         Restricted Information
Inspection Service Reports --Labor Management Practices                          PA-MA-98-004
Related to Potential Violence in the Workplace



                                                                          # of
           Title of Finding                                              Rec’s   SRTN

6. Review of Alleged Systemic Violations of Regulations and Laws Relating to the
   Treatment of Postal Employees in Milwaukee, Wisconsin

  1.       Complaints by Bargaining Unit Employees
  2.       EEO Review
  3.       Labor Relations Process
  4.       Staffing Issues
  5.       Postal Management Interviews
  6.       Statistical Update
                    Overall Recommendation:                               1      None


7. Review of Greater Southern California Area Employee-Management Relations,
   Seattle Division

  1.       Overall Ratings
  2.       Facility Security
  3.       Violence in the Workplace
  4.       Employee—Management Relations
  5.       Union – Management Relations
                    Overall Recommendations:                              7      None



Legend:

           #             Number
           Rec’s.        Recommendations
           SRTN          The Postal Inspection Service tracking System

           Status Implementation Codes:
                001     Completed
                002     Management did not agree
                003     Will be completed per action plan
                004     Management action not taken




                                                                                   Attachment 1
                                                       8
                                            Restricted Information
Inspection Service Reports --Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace



                   Summary of Findings and Recommendations

1. Audit of Pacific EEO Activity

The audit report addressed six findings and related recommendations to establish
opportunities for improving the EEO program within the Pacific Area.

   �   IS Tracking System Status. The tracking system showed management actions
       taken on four of six findings and related recommendations were completed.
       However, management disagreed with the remaining two findings addressing
       EEO counseling timeframes and an EEO complaint workhour reporting system.
       Area management indicated that Headquarters, EEO Compliance and Appeals
       Office is responsible for addressing the issues. Thus, the Postal Inspection Service
       coded the findings as “002” (Management did not agree) and did not conduct any
       further work.

   �   Status Confirmation. Management has taken actions to address four of six
       findings and related recommendations. Area management contended that
       headquarters management should address these issues and provide guidance to the
       areas. The unresolved recommendations were:

       Provide Area and District EEO offices with guidance to :

           � Establish an official management policy statement on the start date for
              counseling timeframes.

           � Develop and implement an EEO complaint workhour reporting system to
             accurately report, track, and monitor workhours spent processing EEO
             complaints.


2. National Coordination Audit of USPS Hiring Practices

The report addressed three findings and related recommendations concerning Office of
Personnel Management Submissions, Measuring the Effectiveness of the Hiring Process,
and Processing of Office of Personnel Management (OPM) Results. Overall, the audit
disclosed that 30 percent of the new hires in the sample did not have an OPM background
investigation requested after appointment. This was a continuing problem disclosed in
prior audits.

   �   IS Tracking System Status. The tracking system showed three findings and related
       recommendations coded as “003”, indicating management will complete action
       per future plans.

                                                                                               Attachment 2
                                                    9
                                         Restricted Information
Inspection Service Reports --Labor Management Practices                                    PA-MA-98-004
Related to Potential Violence in the Workplace

   �   Status Confirmation. Headquarters management agreed with each finding and
       related recommendations stating that they are partnering with the Postal
       Inspection Service to conduct a national review of the Postal Service Special
       Agency Check (SAC) process as well as performance reviews at the local level.
       However, the Postal Inspection Service did not perform audit follow up to ensure
       that management took actions to correct identified deficiencies.

       Note: This report superseded and addressed the findings and recommendations
       included in the report, Audit of USPS Hiring Process, dated, September 1992.


3. National Coordination Audit of Enhance Workplace Behavior

   The audit was a study that provided results and statistics to support responses to an
   employee questionnaire used to capture information concerning workplace violence.
   The report contained one finding and related recommendations.

   �   IS Tracking System. The tracking system showed one finding and related
       recommendations with a status implementation code of “003”, indicating
       management will complete action per future plans.

   �   Status Confirmation. Headquarters management did not take actions to correct
       identified deficiencies. According to management, they did not want to establish
       parallel systems to CustomerPerfect! and contended that CustomerPerfect! would
       address the recommendations included in the report. Although in a memorandum
       dated April 23, 1997, headquarters management reinforced the need for the field
       managers to apply the principles of program and process management to
       workplace programs, we were unable to determine if this action sufficiently
       addressed the identified deficiencies. In addition, the Postal Inspection Service
       did not conduct audit follow up to ensure that management took actions to correct
       identified deficiencies.

       The unresolved recommendation was: Ensure responsible management officials
       establish a comprehensive approach for evaluating workplace behavior programs,
       including cost-benefit analysis, and monitoring the evaluation process.


4. Audit of Employee Commitment

   The audit was a study providing results and statistics to support responses to an
   employee questionnaire. The questionnaire captured information regarding
   management’s effectiveness in creating a workplace that promotes increased
   employee commitment. There was one finding and a related recommendation
   included in the report.



                                                                                            Attachment 2

                                                   10
                                         Restricted Information
Inspection Service Reports --Labor Management Practices                                           PA-MA-98-004
Related to Potential Violence in the Workplace

    �   IS Tracking System. The tracking system only showed one finding and
        recommendation with an implementation code “001”, indicating action completed.
        The recommendation required management to analyze survey results to develop
        strategies for improvement. Management generally concurred with the results and
        agreed to accelerate the use of the Employee Opinion Survey results to address
        barriers between management and the workforce.

    �   Status Confirmation. Area management stated they were unaware of the report.
        Further, Employee Opinion Surveys were halted in FY 95, and therefore, survey
        results were not used to address the finding and recommendation included in the
        report.

        The unresolved recommendation was: Develop and execute an action plan for
        management to address the survey results for improving barriers between
        management and the workforce.


5. Audit of USPS Hiring Process

    The report addressed ten findings and related recommendations. However, according
    to the Postal Inspection Service and management, the findings and recommendations
    were addressed in the National Coordination Audit of Hiring and Practices, PA (1),
    January 1997.


6. Review of Alleged Systemic Violations of Regulations and Laws Relating to the
   Treatment of Postal Employees in Milwaukee, Wisconsin:

    The report addressed seven areas of concern with one overall recommendation
    relating to labor management practices at the Milwaukee Processing and Distribution
    Center.

    �   IS Tracking System. The tracking system did not provide details on the seven
        areas of concern and the one recommendation included in this report. Interviews
        with Postal Inspection Service system personnel disclosed that they were not
        required to follow up on final reports denoted as “Other”.

    �   Status Confirmation. Management implemented the training program as
        recommended. However, a subsequent OIG review6 showed that the program did
        not help to improve managers and supervisors’ human relations and leadership
        skills.




6
  The Office of Inspector General did extensive work in this area addressing the findings and recommendations
included in the report, which is scheduled to be released to management shortly.
                                                                                                      Attachment 2
                                                           11
                                                Restricted Information
Inspection Service Reports --Labor Management Practices                                     PA-MA-98-004
Related to Potential Violence in the Workplace



7. Review of Greater Southern California Area Employee-Management Relations,
    Seattle Division

The report was a workforce study addressing five areas of concern including related
recommendations regarding individual and organizational effectiveness.

    �   IS Tracking System. The tracking system did not provide details on the areas of
        concern and recommendations included in the report. Interviews with Postal
        Inspection Service system personnel disclosed that they were not required to
        follow-up on final reports coded as “Other”.

    �   Status Confirmation. Management has taken corrective actions to improve
        individual and organizational effectiveness of the Seattle Division.

Additionally, because the Postal Inspection Service’s tracking system did not include
specific details for two of the reports (coded as “other”), the Inspection Service has no
means of verifying the status of management actions taken to correct identified
deficiencies. However, this issue will be addressed in a systemic audit of U.S. Postal
Inspection Service Audit Recommendation and Tracking System currently being
conducted by USPS OIG.




                                                                                             Attachment 2

                                                    12
                                          Restricted Information
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       13
                                        Restricted Information    Attachment 3
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       14
                                        Restricted Information    Attachment 3
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       15
                                        Restricted Information    Attachment 3
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       16
                                        Restricted Information    Attachment 3
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       17
                                        Restricted Information    Attachment 3
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       18
                                        Restricted Information    Attachment 3
Labor Management Practices                                       PA-MA-98-004
Related to Potential Violence in the Workplace

                                    MANAGEMENT COMMENTS




                                                       19
                                        Restricted Information    Attachment 3
